APPENDIX

App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-10097
UNITED STATES OF AMERICA,
Respondent-Appellee,
v.
JAN ROUVEN FUECHTENER,
Petitioner-Appellee.
Appeal from the United States District Court
for the District of Nevada
Signed March 9, 2020
ORDER:
Before: SILVERMAN, CHRISTEN, and
BADE, Circuit Judges.
Appellee’s motion to dismiss this appeal
in light of the valid appeal waiver
(Docket Entry No. 16) is granted. See
United States v. Harris, 628 F.3d 1203,
1205 (9th Cir. 2011) (knowing and voluntary appeal waiverwhose language encompasses the right to appeal on the
grounds raised is enforceable). Contrary
to appellant’s argument, his claim that
the district court erred by denying his
motion to withdraw his guilty plea is covered by the waiver. See United States v.

App. 2
Rahman, 642 F.3d 1257, 1259 (9th Cir.
2011) (waiver of right to appeal any aspect of defendant's conviction covers appeal of denial of motion to withdraw
guilty plea). Moreover, the record does
not support appellant’s claim that the
government breached the plea agreement. To the extent appellant claims
that his plea was not knowing and voluntary because he received ineffective assistance of counsel, he may bring that
claim in a 28 U.S.C. § 2255 motion, as
his plea agreement expressly contemplates. See Rahman, 642 F.3d at 125960. DISMISSED.

App. 3
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-10097
UNITED STATES OF AMERICA,
Respondent-Appellee,
v.
JAN ROUVEN FUECHTENER,
Petitioner-Appellee.
Appeal from the United States District Court
for the District of Nevada
Signed May 15, 2020

Before: SILVERMAN, CHRISTEN, and BADE, Circuit Judges.
Appellant’smotion for reconsideration (Docket Entry No. 22) is denied. See 9th Cir. R. 27-10.

